         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

                  OFFICE OF INSPECTOR GENERAL

   STATEMENT OF EVERETT L. MOSLEY, INSPECTOR GENERAL AND

 TIMOTHY E. COX, REGIONAL INSPECTOR GENERAL, SAN SALVADOR

       BEFORE THE HOUSE COMMITTEE ON APPROPRIATIONS

               SUBCOMMITTEE ON FOREIGN OPERATIONS

                         MARCH 21, 2001



MR. CHAIRMAN, OTHER COMMITTEE MEMBERS, AND COMMITTEE STAFF,

WITH ME TODAY IS MR. TIM COX, REGIONAL INSPECTOR GENERAL OF

OUR OFFICE IN SAN SALVADOR.    WE ARE PLEASED TO OFFER OUR

TESTIMONY ON USAID PROGRAMS FUNDED UNDER THE CENTRAL

AMERICA AND THE CARIBBEAN EMERGENCY DISASTER RECOVERY FUND.

THESE PROGRAMS ARE COMMONLY REFERRED TO AS “HURRICANE

MITCH” PROGRAMS AND WE WILL SO REFER TO THEM IN OUR

TESTIMONY TODAY ALTHOUGH, AS YOU KNOW, SOME OF THE FUNDS

ARE BEING USED TO RESPOND TO THE EFFECTS OF HURRICANE

GEORGES IN THE CARIBBEAN AND THE EFFECTS OF AN EARTHQUAKE

IN COLOMBIA.



IN OUR TESTIMONY, WE WOULD LIKE TO DISCUSS THE OVERALL

PROGRESS OF THE HURRICANE MITCH PROGRAM, THE STRATEGY

DEVELOPED BY THE OFFICE OF INSPECTOR GENERAL (OIG) TO

PROVIDE OVERSIGHT FOR THE PROGRAM, THE RESULTS WE HAVE



                               1
REPORTED TO DATE, AND THEN SOME TENTATIVE CONCLUSIONS AND

LESSONS LEARNED.   AT THE CONCLUSION OF THIS TESTIMONY, WE

WILL BE PLEASED TO ANSWER ANY QUESTIONS YOU MAY HAVE.



PROGRAM PROGRESS



EXCLUDING $34 MILLION IN TRANSFERS TO OTHER FEDERAL

AGENCIES UNDER THE AUTHORITY OF SECTION 632(A) OF THE

FOREIGN ASSISTANCE ACT, AS OF DECEMBER 31, 2000, USAID

REPORTED THAT $586 MILLION OF THE REMAINING $587 MILLION

FROM THE HURRICANE MITCH SUPPLEMENTAL APPROPRIATION WAS

OBLIGATED, $534 MILLION WAS COMMITTED, AND $240 MILLION WAS

SPENT.   THUS, CLOSE TO 100 PERCENT OF THE AMOUNT AVAILABLE

TO USAID WAS OBLIGATED, 91 PERCENT WAS COMMITTED, AND 41

PERCENT WAS SPENT.   EACH QUARTER WE TRACE THE EXPENDITURE

INFORMATION BACK TO THE SUPPORTING REPORTS SUBMITTED BY

USAID MISSIONS.    BASED ON THIS WORK, THERE WERE NO MATERIAL

ADJUSTMENTS TO THE EXPENDITURE DATA AS OF DECEMBER 31,

2000.



THE OIG HAS HELPED MONITOR THE PROGRAM’S PROGRESS PRIMARILY

THROUGH ITS INTERNAL AUDIT PROGRAM.   TO DATE, WE HAVE

COMPLETED FIELDWORK ON FIVE AUDITS THAT EXAMINED WHETHER

ACTIVITIES WERE ON SCHEDULE TO ACHIEVE THE PLANNED OUTPUTS.



                               2
WE WILL BRIEFLY SUMMARIZE THE RESULTS OF THOSE AUDITS HERE

AND WE WILL DISCUSS THEM IN MORE DETAIL IN A FEW MINUTES

WHEN WE DISCUSS THE RESULTS WE HAVE REPORTED UNDER OUR

OVERSIGHT PROGRAM.



OUR AUDIT REPORT ON THE $50 MILLION ROAD AND BRIDGE

RECONSTRUCTION PROGRAM IN HONDURAS CONCLUDED THAT THE

PROGRAM WAS NOT ON SCHEDULE TO ACHIEVE THE PLANNED OUTPUTS,

DUE TO HIGHER THAN EXPECTED RECONSTRUCTION COSTS AND A

SLOWER THAN EXPECTED START OF THE RECONSTRUCTION WORK.    IN

RESPONSE TO THE AUDIT, USAID/HONDURAS AND THE GOVERNMENT OF

HONDURAS DEVELOPED A PLAN TO ACCELERATE PROGRESS UNDER THE

PROGRAM.



IN HONDURAS, BASED ON OUR AUDIT OF THE WATER AND SANITATION

ACTIVITIES WITH $95 MILLION IN OBLIGATIONS, WE CONCLUDED

THAT THE ACTIVITIES WERE NOT ON SCHEDULE.    WE RECOMMENDED

THAT USAID AND ITS GRANTEES DEVELOP WORK PLANS TO SHOW HOW

PROGRESS COULD BE ACCELERATED TO COMPLETE ALL OF THE

PLANNED ACTIVITIES BY DECEMBER 31, 2001.    USAID/HONDURAS

HAS IMPLEMENTED THIS RECOMMENDATION FOR ONE OF ITS GRANTEES

AND IS DEVELOPING A PLAN OF ACTION FOR THE SECOND GRANTEE.




                             3
IN EXAMINING THE $3 MILLION ROAD AND BRIDGE REPAIR ACTIVITY

IN GUATEMALA, WE CONCLUDED THAT ONE GRANTEE, WITH $2

MILLION IN USAID FUNDS, WAS ON SCHEDULE TO ACHIEVE THE

PLANNED OUTPUTS BUT A SECOND GRANTEE, WITH $1 MILLION IN

USAID FUNDS, WAS NOT.    WE RECOMMENDED THAT USAID/GUATEMALA

OBTAIN FROM THE SECOND GRANTEE A FIRM PLAN OF ACTION FOR

COMPLETING THE PLANNED WORK.



IN THE DOMINICAN REPUBLIC, OUR AUDITORS CONCLUDED THAT THE

$8 MILLION HOUSING REHABILITATION PROGRAM WAS ON SCHEDULE

TO ACHIEVE THE PLANNED OUTPUTS.



FINALLY, IN NICARAGUA, WE FOUND THAT THE $9.5 MILLION WATER

AND SANITATION PROGRAM WAS ON SCHEDULE, EXCEPT FOR AN

ACTIVITY TO CONSTRUCT SMALL DRAINS VALUED AT ABOUT

$116,000.    WE PLAN TO RECOMMEND THAT USAID/NICARAGUA TAKE

ACTION TO ACCELERATE CONSTRUCTION OF THESE DRAINS OR

REPROGRAM THE FUNDS TO ANOTHER ACTIVITY.



AS YOU CAN SEE, THE AUDITS THAT WE HAVE COMPLETED TO DATE

HAVE DISCLOSED A RANGE OF CONDITIONS, FROM ACTIVITIES THAT

WERE ON SCHEDULE TO ACTIVITIES THAT WERE SIGNIFICANTLY

DELAYED.    WE HAVE FOCUSED ON THE LARGER ACTIVITIES IN EACH

COUNTRY AND, AS YOU KNOW, SOME OF THE LARGEST



                               4
INFRASTRUCTURE ACTIVITIES HAVE RUN INTO SOME FAIRLY

SIGNIFICANT IMPLEMENTATION PROBLEMS.



OIG OVERSIGHT STRATEGY



THE OVERALL PURPOSE OF THE OIG’S OVERSIGHT EFFORT HAS BEEN

TO MAKE SURE THAT THE HURRICANE MITCH FUNDS ARE WELL SPENT.

WE WANT TO PREVENT PROBLEMS FROM OCCURRING, WHERE THAT IS

POSSIBLE, AND DETECT PROBLEMS EARLY ON, WHEN THEY INVOLVE

RELATIVELY SMALL SUMS OF MONEY AND WHEN THEY CAN BE

CORRECTED FAIRLY EASILY.



IN DEVELOPING OUR STRATEGY AND IN CARRYING IT OUT, WE HAVE

WORKED CLOSELY WITH CUSTOMERS AND STAKEHOLDERS TO BE SURE

THAT THE STRATEGY IS PRACTICAL AND THAT OUR WORK WILL MEET

THE NEEDS OF OUR CUSTOMERS.    THE STRATEGY IS INNOVATIVE IN

THE SENSE THAT IT IS NOT STRICTLY AN AUDIT OR

INVESTIGATIONS STRATEGY BUT INCLUDES MANY INNOVATIVE TYPES

OF ACTIVITIES, AIMED AT PREVENTION AND DETERRENCE, THAT WE

BROUGHT INTO OUR STRATEGY FROM OUTSIDE THE AUDIT AND

INVESTIGATIONS TRADITIONS.    THE STRATEGY EMPHASIZES

PARTICIPATION IN THE SENSE THAT IT GIVES USAID’S GRANTEES

AND CONTRACTORS A PROMINENT ROLE IN HELPING TO PREVENT AND

DETECT FRAUDULENT ACTIVITIES.



                                5
THE OIG DEVELOPED ITS OVERSIGHT STRATEGY IN CONSULTATION

WITH KEY CONGRESSIONAL STAFF MEMBERS, INCLUDING THE STAFF

OF YOUR COMMITTEE.   HERE, WE WOULD LIKE TO SAY THAT WE ARE

VERY GRATEFUL FOR THE SUPPORT AND COUNSEL THAT YOUR

COMMITTEE HAS PROVIDED TO OIG TO HELP US CARRY OUT OUR

STATUTORY OVERSIGHT ROLE.    AS YOU KNOW, THE SUPPLEMENTAL

APPROPRIATION LEGISLATION INCLUDED $1.5 MILLION IN

ADDITIONAL OPERATING EXPENSE FUNDS FOR OIG TO SUPERVISE

ADDITIONAL AUDITS AND INVESTIGATIONS OF HURRICANE MITCH

ACTIVITIES.    WE HAVE USED THESE ADDITIONAL FUNDS TO HIRE

FIVE AUDIT STAFF UNDER PERSONAL SERVICES CONTRACTS AND PAY

TRAVEL EXPENSES FOR THESE INDIVIDUALS, PLUS OUR U.S.

DIRECT-HIRE AUDITORS AND INVESTIGATORS, TO PROVIDE CLOSE

OVERSIGHT OF THE HURRICANE MITCH FUNDS.



THE OIG BEGAN CONSULTATIONS WITH USAID’S BUREAU FOR LATIN

AMERICA AND THE CARIBBEAN (LAC BUREAU) AND USAID’S MISSIONS

IN THE REGION IN NOVEMBER 1999, SHORTLY AFTER HURRICANE

MITCH ENDED.   THESE CONSULTATIONS CONTINUED AS THE MISSIONS

DEVELOPED THEIR RECONSTRUCTION PROGRAMS AND AS THE

ADMINISTRATION DEVELOPED ITS SUPPLEMENTAL APPROPRIATION

REQUEST.   WHEN WE PERFORMED OUR RISK ASSESSMENTS OF

INDIVIDUAL ACTIVITIES FINANCED UNDER THE SUPPLEMENTAL



                               6
APPROPRIATION, WE DISCUSSED THE RESULTS WITH USAID MISSIONS

BEFORE DECIDING WHAT TYPE OF OVERSIGHT WOULD BE APPROPRIATE

FOR EACH ACTIVITY.   THE DECISIONS THAT WE MADE BASED ON THE

RISK ASSESSMENTS REFLECTED, IN ALMOST EVERY CASE, A

CONSENSUS BETWEEN THE OIG AND USAID MISSION MANAGERS.    WE

HAVE CONTINUED TO WORK VERY CLOSELY WITH USAID STAFF TO

MAKE SURE THAT USAID FUNDS ARE SPENT RESPONSIBLY BY

GRANTEES AND CONTRACTORS.



THE OIG ALSO BEGAN MEETING WITH U.S. GENERAL ACCOUNTING

OFFICE STAFF IN EARLY 2000, INITIALLY MEETING WITH GAO

STAFF ON A MONTHLY BASIS AND MORE RECENTLY ON A QUARTERLY

BASIS.



THE OIG COORDINATED ITS STRATEGY WITH OTHER DONORS (FOR

EXAMPLE, THE WORLD BANK AND THE INTER-AMERICAN DEVELOPMENT

BANK) PROVIDING HURRICANE MITCH ASSISTANCE IN CENTRAL

AMERICA, BRIEFING THE DONORS ON THE STRATEGY IN JUNE 2000

AND SUBSEQUENTLY PROVIDING MORE DETAILED INFORMATION TO

DONOR STAFF INVOLVED IN OVERSIGHT PLANNING.



THE OIG HAS ALSO COORDINATED ITS ACTIVITIES WITH THE

INSPECTORS GENERAL OF THE OTHER FEDERAL AGENCIES WHO

RECEIVED HURRICANE MITCH FUNDS UNDER THE AUTHORITIES OF



                              7
SECTIONS 632 (A) AND (B) OF THE FOREIGN ASSISTANCE ACT OF

1961, AS AMENDED TO HELP ENSURE THAT ALL OF THE ACTIVITIES

FINANCED UNDER THE HURRICANE MITCH SUPPLEMENTAL

APPROPRIATION RECEIVE ADEQUATE OVERSIGHT REGARDLESS OF

WHICH FEDERAL AGENCY IS IMPLEMENTING THE ACTIVITIES.



DURING IMPLEMENTATION OF THE OVERSIGHT PROGRAM, WE HAVE

CONTINUED TO KEEP OUR CUSTOMERS AND STAKEHOLDERS INFORMED

THROUGH QUARTERLY BRIEFINGS FOR THE STAFF OF SIX

CONGRESSIONAL COMMITTEES, INCLUDING YOUR COMMITTEE, AS WELL

AS FOR THE LAC BUREAU AND OTHER INTERESTED USAID STAFF.



ADDITIONALLY, WE HAVE DEVOTED A SIGNIFICANT AMOUNT OF

RESOURCES TO PROACTIVE ACTIVITIES DIRECTED TOWARD

PREVENTION AND DETERRENCE.   WE DECIDED EARLY ON THAT IT

WOULD BE VITALLY IMPORTANT TO ENLIST THE HELP OF USAID’S

CONTRACTORS AND GRANTEES – WHO MANAGE USAID ACTIVITIES ON A

DAY-TO-DAY BASIS – TO GUARD AGAINST FRAUDULENT ACTIVITIES

AND HELP SERVE AS OUR EYES AND EARS.   MOST FRAUD CASES ARE

DISCOVERED THROUGH ALLEGATIONS, AND WE WANTED TO MAKE SURE

THAT THE PEOPLE WORKING ON USAID PROGRAMS WERE TRAINED TO

RECOGNIZE SITUATIONS THAT COULD BE INDICATIVE OF FRAUDULENT

ACTIVITIES.   AND AT THE SAME TIME WE WANTED TO MAKE THEM

AWARE OF THE EXCEPTIONAL EFFORTS WE HAVE UNDERTAKEN TO



                              8
DETECT FRAUD AND ABUSE THROUGH OUR AUDIT AND INVESTIGATIONS

PROGRAMS.



TOWARD THIS END, THE OIG DEVELOPED A FRAUD AWARENESS

TRAINING PROGRAM WHERE TEAMS OF SPANISH-SPEAKING AUDITORS

AND INVESTIGATORS VISITED USAID MISSIONS AND VISITED OUR

CONTRACTORS AND GRANTEES AT THEIR OFFICES TO PROVIDE

BRIEFINGS ON THE CAUSES OF FRAUD AND CORRUPTION AND HOW

THESE PROBLEMS CAN BE PREVENTED AND DETECTED.    AS PART OF

THE TRAINING, WE PROVIDED THE PARTICIPANTS WITH A MANUAL ON

FRAUD INDICATORS THAT WAS DEVELOPED BY OIG AND TRANSLATED

INTO SPANISH.   IN ADDITION, WHERE WE BELIEVED THAT IT WOULD

BE HELPFUL, WE PROVIDED THE GRANTEES AND CONTRACTORS WITH

MATERIALS TO HELP THEM DEVELOP POLICIES AND PROCEDURES THAT

CAN HELP PREVENT FRAUD, SUCH AS CODES OF CONDUCT, CODES OF

ETHICS, FINANCIAL DISCLOSURE POLICIES, FRAUD REPORTING

POLICIES, AND SO ON.   UNDER THE FRAUD AWARENESS TRAINING

PROGRAM, WE HAVE TRAINED 2,141 PARTICIPANTS IN CENTRAL

AMERICA AND THE CARIBBEAN.



THE RESPONSE TO THIS PROGRAM WAS IMMEDIATE AND

OVERWHELMINGLY POSITIVE.   IT WAS VERY CLEAR TO OUR TRAINERS

THAT ANTI-CORRUPTION AND ANTI-FRAUD EFFORTS ARE NOT MERELY

FASHIONABLE ISSUES WITHIN THE DONOR COMMUNITY BUT ARE



                              9
MEANINGFUL ISSUES FOR THE PEOPLE WHO WORK ON USAID PROGRAMS

IN CENTRAL AMERICA AND THE CARIBBEAN.   THERE WAS AN UNMET

NEED FOR PRACTICAL, DETAILED INFORMATION ON HOW TO PREVENT

FRAUD AND CORRUPTION, AND THIS PROGRAM HELPED MEET THIS

NEED.   ONE RESULT OF THIS PROGRAM HAS BEEN THAT OIG HOTLINE

CALLS FROM THE REGION HAVE INCREASED 100 PERCENT.   IT IS

DIFFICULT TO QUANTIFY THE EFFECTIVENESS OF THIS PROGRAM IN

PREVENTING FRAUD FROM OCCURRING BUT WE HAVE VERY STRONG

REASONS FOR BELIEVING THAT THE PROGRAM HAS HAD THE DESIRED

PREVENTIVE AND DETERRENT EFFECT.   BECAUSE OF THE STRONG

POSITIVE RESPONSE TO THIS PROGRAM, THE OIG IS IMPLEMENTING

THE FRAUD AWARENESS TRAINING PROGRAM IN ITS OTHER REGIONS

AS WELL.



TO DECIDE WHAT TYPE OF OVERSIGHT THE OIG SHOULD PROVIDE FOR

INDIVIDUAL ACTIVITIES FINANCED UNDER THE SUPPLEMENTAL

APPROPRIATION, WE EMPLOYED A RISK-BASED APPROACH.   STAFF

FROM OUR OFFICE IN SAN SALVADOR CONDUCTED RISK ASSESSMENTS

OF EACH ACTIVITY THAT CONSIDERED FOUR FACTORS:



(1) THE EXPERIENCE, PERFORMANCE RECORD, AND AUDIT HISTORY

OF THE CONTRACTORS AND GRANTEES RESPONSIBLE FOR

IMPLEMENTING EACH ACTIVITY,




                              10
(2) THE TYPE OF ACTIVITIES BEING FINANCED BY USAID (THIS IS

IMPORTANT SINCE, FOR EXAMPLE, THE RISKS FOR A CONSTRUCTION

ACTIVITY DIFFER FROM THE RISKS FOR A TECHNICAL ASSISTANCE

ACTIVITY),



(3) THE CONTROLS AND IMPLEMENTATION ARRANGEMENTS FOR EACH

ACTIVITY (INCLUDING ARRANGEMENTS FOR DISBURSING FUNDS,

DELIVERING SERVICES, AND MONITORING PROGRESS), AND



(4) THE AMOUNT OF FUNDS DEVOTED TO EACH ACTIVITY.



BASED ON THESE ASSESSMENTS, THE OIG DECIDED TO PERFORM

CONCURRENT AUDITS OF THE HIGHER RISK ACTIVITIES AND ANNUAL

AUDITS OF THE LOWER RISK ACTIVITIES IMPLEMENTED BY

CONTRACTORS AND GRANTEES.   WE ARE NOT PERFORMING FINANCIAL

AUDITS OF ACTIVITIES CARRIED OUT DIRECTLY BY USAID OR BY

OTHER FEDERAL AGENCIES, ALTHOUGH THESE ACTIVITIES ARE

SUBJECT TO PERFORMANCE AUDITS BY OUR OFFICE.   CURRENTLY,

THE OIG IS SUPERVISING 21 CONCURRENT AUDITS, 24 ANNUAL

AGENCY-CONTRACTED AUDITS, AND 42 ANNUAL RECIPIENT-

CONTRACTED AUDITS OF HURRICANE MITCH ACTIVITIES.    THESE

AUDITS ARE BEING CONDUCTED BY U.S. AUDIT FIRMS, BY FOREIGN

AUDIT FIRMS AND SUPREME AUDIT INSTITUTIONS (SAIS) THAT THE




                              11
OIG HAS DEEMED ELIGIBLE TO PERFORM AUDITS OF USAID FUNDS,

AND BY THE DEFENSE CONTRACT AUDIT AGENCY (DCAA).



CONCURRENT AUDITS ARE FINANCIAL STATEMENT AUDITS THAT ARE

PERFORMED WHILE THE ACTIVITY IS BEING IMPLEMENTED, WITH

QUARTERLY REPORTING BY THE AUDITORS.   EACH QUARTERLY REPORT

INCLUDES THE AUDITORS’ OPINION ON THE FUND ACCOUNTABILITY

STATEMENT (THIS IS A FINANCIAL STATEMENT DESIGNED BY THE

OIG THAT SHOWS THE BUDGETED AND ACTUAL INCOME AND EXPENSES

OF THE USAID-FUNDED ACTIVITY AS WELL AS ANY QUESTIONED

COSTS IDENTIFIED BY THE AUDITORS), A REPORT ON INTERNAL

CONTROL, A REPORT ON COMPLIANCE WITH AGREEMENT TERMS AND

APPLICABLE LAWS AND REGULATIONS, A REPORT ON THE AUDITORS’

REVIEW OF THE COST SHARING SCHEDULE (WHICH IS SIMILAR TO

THE FUND ACCOUNTABILITY STATEMENT BUT INCLUDES ONLY THE

AUDITEE’S CONTRIBUTIONS TO THE PROGRAM), AND A REPORT ON

THE AUDITORS’ FOLLOW-UP ON PREVIOUS AUDIT RECOMMENDATIONS.

BECAUSE THESE CONCURRENT AUDITS COVER HIGHER RISK

ACTIVITIES, WE HAVE PUT IN PLACE SOME EXCEPTIONAL QUALITY

CONTROL MEASURES.   FOR EXAMPLE, WHERE THESE AUDITS ARE

CONDUCTED BY AUDIT FIRMS BASED OVERSEAS, WE REQUIRE THAT

THE AUDIT REPORTS BE SIGNED IN THE NAME OF THE U.S. AUDIT

FIRM THAT THEY REPRESENT.   WE ALSO REQUIRE ON-SITE

SUPERVISION OF THE AUDIT WORK BY STAFF OF THE U.S. FIRM.



                              12
FINALLY, OIG AUDITORS CLOSELY MONITOR THE AUDIT WORK BY

APPROVING THE AUDIT STATEMENTS OF WORK, AUDIT PROGRAMS, AND

DRAFT AND FINAL AUDIT REPORTS AND BY VISITING THE AUDITORS

ON SITE AND REVIEWING THEIR WORKING PAPERS TO VERIFY THAT

THEY ARE ADHERING TO GOVERNMENT AUDITING STANDARDS ISSUED

BY THE U.S. GENERAL ACCOUNTING OFFICE.



THE ANNUAL AGENCY-CONTRACTED AUDITS SUPERVISED BY OIG ARE

IDENTICAL IN SCOPE TO THE CONCURRENT AUDITS WE HAVE JUST

DESCRIBED, AND OUR SUPERVISION OF THE AUDITS AND

INVOLVEMENT IN QUALITY CONTROL IS ALSO THE SAME AS FOR THE

CONCURRENT AUDITS.   THE ONLY DIFFERENCE IS IN THE FREQUENCY

OF REPORTING: FOR THE CONCURRENT AUDITS, WE REQUIRE

QUARTERLY REPORTING AND FOR THE ANNUAL REPORTS THERE IS OF

COURSE ONLY ONE AUDIT REPORT AT THE END OF THE YEAR.



FOR THE RECIPIENT-CONTRACTED AUDITS, THE SCOPE OF THE

AUDITS IS THE SAME AS THE SCOPE OUTLINED ABOVE.    FOR THESE

AUDITS, WHICH COVER RELATIVELY SMALL, LOW RISK ACTIVITIES,

OUR INVOLVEMENT IN QUALITY CONTROL COMES MAINLY AT THE END

OF THE AUDIT, ONCE THE AUDIT WORK IS COMPLETE.    WE PERFORM

A DESK REVIEW ON EVERY RECIPIENT-CONTRACTED AUDIT, WHICH

INVOLVES A REVIEW OF THE AUDIT REPORT TO VERIFY THAT THE

AUDITORS FOLLOWED U.S. GOVERNMENT AUDITING STANDARDS AND



                              13
THE APPROVED STATEMENT OF WORK.    THEN, FOR A SAMPLE OF AT

LEAST 10 PERCENT OF THE FINAL REPORTS, WE PERFORM A QUALITY

CONTROL REVIEW, WHICH IS A MORE IN-DEPTH REVIEW THAT

INCLUDES AN EXAMINATION OF THE AUDITORS’ WORKING PAPERS.



IN ADDITION TO OUR FINANCIAL AUDIT PROGRAM, WHICH IS

FOCUSED ON AUDITING OUR CONTRACTORS AND GRANTEES TO MAKE

SURE THAT USAID FUNDS ARE USED FOR AUTHORIZED PURPOSES, THE

OIG ALSO HAS AN INTERNAL AUDIT PROGRAM, WHICH IS FOCUSED ON

ASSESSING HOW WELL USAID IS CARRYING OUT ITS MANAGEMENT

RESPONSIBILITIES FOR THE HURRICANE MITCH PROGRAM.    THESE

AUDITS ARE PERFORMED BY OIG STAFF.    SOME OF THESE INTERNAL

AUDITS EXAMINE MISSION FINANCIAL MANAGEMENT ISSUES AND ARE

DESIGNED TO DETERMINE IF ADVANCES AND DISBURSEMENTS ARE

PROPERLY PROCESSED AND REPORTED.    OTHER INTERNAL AUDITS

EXAMINE PROGRAM IMPLEMENTATION ISSUES AND ARE DESIGNED TO

ADDRESS ISSUES SUCH AS:



(1) ARE RECONSTRUCTION ACTIVITIES ON SCHEDULE TO ACHIEVE

THE INTENDED OUTPUTS?



(2) HAVE HOST GOVERNMENTS FOLLOWED USAID COMPETITION

REQUIREMENTS IN AWARDING HOST COUNTRY CONTRACTS?




                             14
(3) HAVE USAID MISSIONS IMPLEMENTED ADEQUATE MONITORING

SYSTEMS FOR THEIR RECONSTRUCTION PROGRAMS?



OUR AUDIT PROGRAM IS COMPLEMENTED BY A ROBUST

INVESTIGATIONS PROGRAM WHERE WE MONITOR THE HURRICANE MITCH

PROGRAM FOR INDICATIONS OF FRAUD OR ABUSE.    ONE PRIORITY OF

THIS PROACTIVE MONITORING EFFORT IS TO EXAMINE PROCUREMENT

ACTIONS FOR SIGNS OF BID RIGGING OR OTHER IRREGULARITIES.

AND, OF COURSE, OUR INVESTIGATORS RESPOND TO ALLEGATIONS

AND LEADS DEVELOPED THROUGH THE AUDIT PROGRAM AND OTHER OIG

INITIATIVES.



IN SUMMARY, THE OIG’S STRATEGY FOR HELPING PROVIDE

OVERSIGHT FOR THE HURRICANE MITCH PROGRAM EMPHASIZES

PREVENTION AND DETERRENCE, AS WELL AS AN INCLUSIVE APPROACH

THAT RECOGNIZES THE IMPORTANT WAYS IN WHICH USAID MISSIONS

AND USAID’S CONTRACTORS AND GRANTEES CAN HELP PREVENT FRAUD

FROM OCCURRING.   VERY INTENSIVE, RISK-BASED AUDIT AND

INVESTIGATIONS PROGRAMS SUPPORT THESE EFFORTS.



OIG OVERSIGHT RESULTS



AT THIS POINT, WE WOULD LIKE TO DISCUSS THE RESULTS WE HAVE

REPORTED TO DATE UNDER OUR AUDIT PROGRAM.    WE REGRET THAT



                              15
WE ARE NOT ABLE TO DISCUSS THE RESULTS OF THE

INVESTIGATIONS PROGRAM IN THIS FORUM, OTHER THAN TO SAY

THAT WE DO HAVE SEVERAL INVESTIGATIONS UNDERWAY.    AS THESE

INVESTIGATIONS ARE COMPLETED, WE WILL BRIEF YOUR STAFF ON

THE RESULTS AND OF COURSE WE ARE ALWAYS AVAILABLE IF YOU OR

ANY OF THE MEMBERS OF THE COMMITTEE WOULD LIKE TO BE

BRIEFED ON INVESTIGATIONS RESULTS.



TO DATE, UNDER OUR FINANCIAL AUDIT PROGRAM, THE AUDITORS

HAVE COMPLETED FIELDWORK ON 64 AUDITS COVERING $72 MILLION

IN USAID FUNDS.   ON 49 OF THESE AUDITS (77 PERCENT), THE

AUDITORS PRESENTED UNQUALIFIED OPINIONS: THAT IS, THEY

CONCLUDED THAT THE FUND ACCOUNTABILITY STATEMENT FAIRLY

PRESENTED THE INCOME AND EXPENDITURES OF THE USAID-FUNDED

ACTIVITY.   ON 13 AUDITS (20 PERCENT), THE AUDITORS

EXPRESSED QUALIFIED OPINIONS: THAT IS THEY CONCLUDED THAT

THE FUND ACCOUNTABILITY STATEMENT FAIRLY PRESENTED THE

INCOME AND EXPENDITURES OF THE USAID-FUNDED ACTIVITY EXCEPT

FOR THE POSSIBLE EFFECTS ON THE FUND ACCOUNTABILITY

STATEMENT OF THE QUESTIONED COSTS IDENTIFIED BY THE

AUDITORS.   ON ONE AUDIT, THE AUDITORS ISSUED A NEGATIVE

(ADVERSE) OPINION, CONCLUDING THAT THE FUND ACCOUNTABILITY

STATEMENT DID NOT FAIRLY PRESENT THE INCOME AND

EXPENDITURES OF THE USAID-FUNDED ACTIVITY, DUE TO



                              16
QUESTIONED COSTS THAT WERE VERY SIGNIFICANT IN RELATION TO

THE AMOUNT AUDITED.   FINALLY, ON ONE AUDIT, THE AUDITORS

ISSUED A DISCLAIMER SINCE THE GRANTEE FAILED TO PREPARE A

FUND ACCOUNTABILITY STATEMENT AND THEREFORE THE AUDITORS

WERE UNABLE TO COMPLETE THEIR AUDIT.



THE AUDITS COMPLETED TO DATE HAVE IDENTIFIED $2.4 MILLION

IN QUESTIONED COSTS, REPRESENTING 3 PERCENT OF THE AMOUNTS

AUDITED.   THE QUESTIONED COSTS INCLUDED $1.1 MILLION IN

UNSUPPORTED COSTS AND $1.3 MILLION IN INELIGIBLE COSTS.



THESE AUDITS ALSO IDENTIFIED 111 REPORTABLE INTERNAL

CONTROL CONDITIONS AND 121 INSTANCES OF MATERIAL

NONCOMPLIANCE WITH AGREEMENT TERMS OR APPLICABLE LAWS AND

REGULATIONS.   EXAMPLES OF INTERNAL CONTROL AND COMPLIANCE

CONDITIONS REPORTED INCLUDE CASES WHERE:



•   ENTITIES THAT RECEIVED FUNDS FROM USAID AWARDED SUB-

    GRANTS OR SUBCONTRACTS TO OTHER ORGANIZATIONS BUT DID NOT

    ADEQUATELY SUPERVISE THEIR ACTIVITIES,



•   COMPETITIVE PROCUREMENT PROCEDURES WERE NOT FOLLOWED,




                              17
•   WORK COMPLETED BY GRANTEES OR CONTRACTORS DID NOT MEET

    SPECIFICATIONS,



•   USAID FUNDS WERE SPENT FOR INELIGIBLE ITEMS,



•   EXPENDITURES OF USAID FUNDS WERE NOT FULLY DOCUMENTED,



•   ADVANCES WERE REPORTED AS EXPENSES,



•   LOCAL TAXES WERE NOT WITHHELD FROM PAYROLLS, AND



•   SUPPLIES AND MATERIALS PURCHASED WITH USAID FUNDS WERE

    NOT ADEQUATELY SAFEGUARDED.



WE BELIEVE THAT OUR CONCURRENT AUDIT PROGRAM HAS BEEN

SUCCESSFUL IN IDENTIFYING PROBLEMS EARLY ON, WHEN

RELATIVELY SMALL AMOUNTS ARE INVOLVED AND THE DEFICIENCIES

ARE RELATIVELY EASY TO CORRECT.    OUR EXPECTATION HAS BEEN

THAT, AS TIME GOES ON, AND THESE PROBLEMS ARE ADDRESSED

THROUGH OUR RECOMMENDATION FOLLOW-UP PROCESS, AND THE

GRANTEES AND CONTRACTORS GAIN EXPERIENCE WITH USAID

REQUIREMENTS, WE SHOULD BEGIN TO SEE FEWER PROBLEMS.    THIS

IS IN FACT WHAT WE ARE SEEING, AND THERE ARE SOME GOOD




                              18
EXAMPLES WHERE OUR INITIAL CONCURRENT AUDITS IDENTIFIED

SOME FAIRLY SIGNIFICANT PROBLEMS, INCLUDING FAIRLY HIGH

PERCENTAGES OF QUESTIONED COSTS, BUT WE HAVE BEEN

SUCCESSFUL IN CORRECTING THOSE PROBLEMS AND SUBSEQUENT

AUDITS HAVE REPORTED MUCH LOWER PERCENTAGES OF QUESTIONED

COSTS OR NONE AT ALL.



ONE SUCH EXAMPLE WOULD BE THE CASE OF A NON-GOVERNMENTAL

ORGANIZATION (NGO) IN HONDURAS THAT IS IMPLEMENTING A

CREDIT PROGRAM TO HELP REACTIVATE THE ECONOMY IN THE

AFTERMATH OF HURRICANE MITCH.    OUR INITIAL CONCURRENT AUDIT

ON THIS NGO FOUND THAT THE NGO, USING USAID FUNDS, MADE

SUB-GRANTS TO LOCAL ORGANIZATIONS THAT DID NOT HAVE

ADEQUATE ACCOUNTING SYSTEMS AND, IN ONE CASE, HAD NOT

ESTABLISHED A SEPARATE BANK ACCOUNT TO MANAGE FUNDS FROM

THE USAID PROJECT AS REQUIRED BY THE SUB-GRANT AGREEMENT.

AS A RESULT, THE AUDITORS IDENTIFIED $338,894 IN

UNSUPPORTED COSTS, OR 36 PERCENT OF THE AUDITED AMOUNT.

DURING SUBSEQUENT CONCURRENT AUDITS OF THIS NGO, THE

AUDITORS WORKED VERY CLOSELY WITH THE SUB-GRANTEES TO HELP

THEM SET UP RELIABLE ACCOUNTING SYSTEMS THAT WOULD SHOW HOW

USAID FUNDS WERE USED.   AS A RESULT, SUBSEQUENT CONCURRENT

AUDITS HAVE REPORTED RELATIVELY SMALL AMOUNTS OF QUESTIONED

COSTS, RANGING BETWEEN 2 AND 4 PERCENT OF THE AUDITED



                                19
AMOUNTS.   AND WE THINK THAT WE CAN CONTINUE TO BRING THESE

AMOUNTS DOWN EVEN FURTHER THROUGH OUR CONCURRENT AUDIT

PROGRAM.



A SECOND POINT THAT IS IMPORTANT TO UNDERSTAND IS THAT, TO

DATE, WE HAVE BEEN MOSTLY REPORTING RESULTS FROM OUR

CONCURRENT AUDIT PROGRAM, AND OF COURSE WE ARE CONDUCTING

CONCURRENT AUDITS ON THE HIGHEST RISK PROGRAMS.   AS TIME

GOES ON, AND WE BEGIN TO REPORT AUDIT RESULTS ON THE LOWER

RISK PROGRAMS THROUGH ANNUAL AUDITS, WE EXPECT THAT

QUESTIONED COSTS, AS A PERCENTAGE OF AUDITED COSTS, WILL

DECLINE.   AGAIN, THIS IS IN FACT WHAT WE ARE SEEING,

ALTHOUGH WE HAVE RECEIVED RELATIVELY FEW OF THE ANNUAL

AUDIT REPORTS COVERING THE LOWER RISK PROGRAMS.



A THIRD POINT CONCERNS THE NATURE OF THE QUESTIONED COSTS

WE HAVE IDENTIFIED TO DATE.   WE HAVE NOT BEEN IDENTIFYING

QUESTIONED COSTS WHERE USAID FUNDS WERE EMBEZZLED, OR USED

FOR FRIVOLOUS PURPOSES, OR USED FOR PURPOSES TOTALLY

UNRELATED TO THE RECONSTRUCTION EFFORT.   RATHER, WE HAVE

BEEN REPORTING QUESTIONED COSTS WHERE USAID GRANTEES AND

CONTRACTORS HAVE PERFORMED WORK USING INCORRECT

SPECIFICATIONS OR HAVE USED USAID FUNDS FOR PURPOSES THAT

WERE NOT AUTHORIZED UNDER THE TERMS OF THEIR AGREEMENTS BUT



                              20
WERE RELATED TO THE RECONSTRUCTION EFFORT. WE DO NOT WANT

TO MINIMIZE THESE QUESTIONED COSTS BECAUSE THEY REFLECT

INELIGIBLE USES OF USAID FUNDS AND INTERNAL CONTROL AND

COMPLIANCE DEFICIENCIES THAT NEED TO BE CORRECTED.      BUT

THEY DO NOT REFLECT DELIBERATE DIVERSION OF USAID RESOURCES

TO UNAUTHORIZED USES.



THE FOURTH AND LAST POINT WE WOULD LIKE TO MAKE IS THAT

THERE ARE MANY CIRCUMSTANCES WHERE AUDITORS WILL QUESTION

COSTS THAT WILL ULTIMATELY NOT BE SUSTAINED BY THE

RESPONSIBLE GRANT OR CONTRACT OFFICER.    FOR EXAMPLE, OUR

AUDITORS RECENTLY QUESTIONED $330,414 WHEN A GRANTEE

REPORTED AS EXPENSES THE ADVANCES IT HAD MADE TO A

TECHNICAL ASSISTANCE CONTRACTOR.   THE AUDITORS WERE

ABSOLUTELY RIGHT TO QUESTION THESE REPORTED EXPENSES

BECAUSE THEY WERE NOT IN FACT EXPENSES.    BUT IN ALL

LIKELIHOOD, WITHIN SEVERAL MONTHS, THE CONTRACTOR WILL

PERFORM SERVICES AND PROVIDE SUBSTANTIATED INVOICES TO

LIQUIDATE MOST OR ALL OF THE ADVANCES, AND IF THIS IS WHAT

IN FACT HAPPENS THEN THE AUDIT FINDING CAN BE LOOKED AT

ALMOST AS A TIMING ISSUE.   AND, OF COURSE, WHENEVER

AUDITORS IDENTIFY UNSUPPORTED COSTS – CASES WHERE GRANTEES

AND CONTRACTORS WERE NOT ABLE TO PROVIDE SUPPORTING

DOCUMENTATION THAT OUR AUDITORS NEEDED TO REVIEW IN ORDER



                              21
TO ASSURE THEMSELVES THAT COSTS WERE REASONABLE, NECESSARY,

AND ALLOCABLE TO USAID PROGRAMS – THE GRANTEES AND

CONTRACTORS ARE OFTEN ABLE TO SUBSEQUENTLY RECONSTRUCT

THEIR RECORDS OR OTHERWISE DEMONSTRATE TO THE SATISFACTION

OF THE GRANT OR CONTRACT OFFICER THAT THE COSTS ARE

ALLOWABLE.



IN CONCLUSION, BASED ON THE INFORMATION WE HAVE OUTLINED

ABOVE, THE FINANCIAL AUDIT PROGRAM HAS BEEN SUCCESSFUL IN

LIMITING QUESTIONED COSTS AND OTHER TYPES OF DEFICIENCIES

TO A RELATIVELY LOW LEVEL – CERTAINLY, IN OUR JUDGMENT, A

MUCH LOWER LEVEL THAN WE WOULD HAVE SEEN HAD WE NOT

UNDERTAKEN CONCURRENT AUDITS AND OTHER EXCEPTIONAL

OVERSIGHT EFFORTS. MANY PEOPLE, WHEN THE ADMINISTRATION AND

THE CONGRESS BEGAN TO DISCUSS THIS VERY LARGE

RECONSTRUCTION PROGRAM FOR CENTRAL AMERICA, ANTICIPATED

SOME VERY SERIOUS PROBLEMS WITH CORRUPTION AND LIMITED

ABSORPTIVE CAPACITY.    AND WE ARE VERY PLEASED THAT, WORKING

WITH THE USAID MISSIONS AND GRANTEES AND CONTRACTORS IN THE

REGION, WE HAVE BEEN ABLE TO LIMIT THE PROBLEMS TO A

RELATIVELY LOW LEVEL.   THIS IS NOT THE TIME TO BE

SATISFIED, AND WE NEED TO STAY VERY, VERY FOCUSED ON OUR

OVERSIGHT AND CONTROL EFFORTS.      AND WE ARE VERY CONSCIOUS

THAT MORE SERIOUS PROBLEMS COULD DEVELOP OR BE DISCOVERED



                               22
THROUGH OUR OVERSIGHT PROGRAM AT ANY TIME.    BUT SO FAR OUR

OVERSIGHT PROGRAM IS DOING WHAT WE DESIGNED IT TO DO.



UNDER OUR INTERNAL AUDIT PROGRAM, THE AUDITORS HAVE

COMPLETED FIELDWORK ON EIGHT AUDITS, AND WE WOULD LIKE TO

PRESENT THE RESULTS OF THESE AUDITS IN VERY BRIEF FORM.



IN THREE COUNTRIES – HAITI, THE DOMINICAN REPUBLIC, AND

HONDURAS – OUR AUDITORS EXAMINED USAID MISSION FINANCIAL

OPERATIONS TO DETERMINE WHETHER THE MISSIONS WOULD BE ABLE

TO MEET THE INCREASED PACE OF DISBURSEMENTS REQUIRED BY

THEIR RECONSTRUCTION PROGRAMS WHILE STILL PROVIDING CLOSE

SCRUTINY OF PAYMENT REQUESTS.    THE INTENTION HERE WAS TO

PREVENT PROBLEMS FROM OCCURRING BY MAKING SURE THAT

MISSIONS HAD SOUND INTERNAL CONTROL SYSTEMS AND TRAINED

STAFF ON BOARD.   IN PERFORMING THIS AUDIT WORK, WHICH WAS

MODELED AFTER THE WORK THAT WE DO IN MANY USAID MISSIONS AS

PART OF OUR ANNUAL AUDIT OF USAID’S FINANCIAL STATEMENTS

PURSUANT TO THE GOVERNMENT MANAGEMENT REFORM ACT OF 1994,

THE AUDITORS FOCUSED ON ADVANCES, PAYMENTS, AND

RECONCILIATION OF MISSION PAYMENT RECORDS WITH U.S.

TREASURY DEPARTMENT DISBURSING OFFICE RECORDS.    IN ALL

THREE MISSIONS, THE AUDITORS FOUND SOME DEFICIENCIES WITH

RESPECT TO MANAGEMENT OF ADVANCES.    IN ONE MISSION, THERE



                                23
WERE LARGE NUMBERS OF UNRECONCILED PAYMENT TRANSACTIONS,

AND IN ANOTHER MISSION THE AUDITORS FOUND SEVERAL PAYMENTS

THAT WERE NOT IN COMPLIANCE WITH THE UNDERLYING CONTRACT

AND SHOULD NOT HAVE BEEN PROCESSED BY THE MISSION.    THE

AUDITORS RECOMMENDED THAT THE MISSIONS REVISE THEIR

PROCEDURES AND PROVIDE ADDITIONAL TRAINING TO THEIR STAFF

TO ADDRESS THESE DEFICIENCIES.



IN HONDURAS, OIG AUDITED THE MISSION’S $50 MILLION ROAD AND

BRIDGE RECONSTRUCTION ACTIVITY TO DETERMINE IF THE ACTIVITY

WAS ON SCHEDULE TO ACHIEVE THE PLANNED OUTPUTS AND WHETHER

THE GOVERNMENT OF HONDURAS FOLLOWED COMPETITIVE PROCEDURES

TO AWARD HOST COUNTRY CONTRACTS.



USAID/HONDURAS DESIGNED THIS ACTIVITY, CALLED THE EMERGENCY

RECONSTRUCTION OF ROADS AND BRIDGES (RECAP) ACTIVITY, TO

RECONSTRUCT 2,000 KILOMETERS OF UNSURFACED ROADS, 2,000

LINEAR METERS OF TWO-LANE CONCRETE BRIDGES AND FORDS, 30

KILOMETERS OF RECONSTRUCTED AND UPGRADED PAVED ROAD

SECTIONS, AND 20 KILOMETERS OF REPAIRED OR COBBLE STONED

TOWN STREETS AND RELATED WORKS.



THE AUDIT SHOWED THAT USAID/HONDURAS’ ROAD RECONSTRUCTION

ACTIVITIES WERE NOT ON SCHEDULE TO ACHIEVE THE PLANNED



                             24
OUTPUTS.   HIGHER-THAN-EXPECTED RECONSTRUCTION COSTS (60

PERCENT HIGHER THAN ORIGINALLY PLANNED FOR RECONSTRUCTING

UNSURFACED ROADS) AND IMPLEMENTATION DELAYS (RECONSTRUCTION

WORK BEGAN IN MARCH 2000 RATHER THAN IN THE FALL OF 1999 AS

ORIGINALLY PLANNED) LED THE OIG TO CONCLUDE THAT THE RECAP

ACTIVITY’S PLANNED OUTPUTS COULD NOT BE ACHIEVED WITHIN THE

PROJECT BUDGET OR BY THE PLANNED PROJECT COMPLETION DATE OF

DECEMBER 31, 2001.



WITH RESPECT TO HOST COUNTRY CONTRACTS, THE OIG CONCLUDED

THAT USAID-PRESCRIBED COMPETITIVE PROCEDURES WERE FOLLOWED

WITH RESPECT TO ADVERTISING, PREPARATION OF SOLICITATION

DOCUMENTS, COMPETITIVE SELECTION, AND AWARDING OF HOST

COUNTRY CONTRACTS.



USAID/HONDURAS TOOK NUMEROUS ACTIONS BOTH BEFORE AND

FOLLOWING THE OIG’S AUDIT TO SPEED IMPLEMENTATION OF THE

RECAP ACTIVITY.   IN RESPONSE TO THE AUDIT, USAID/HONDURAS, IN

CONSULTATION WITH THE GOVERNMENT OF HONDURAS, REVISED THE

PLANNED OUTPUTS, REDUCING UNSURFACED ROAD RECONSTRUCTION FROM

2,000 KILOMETERS TO 1,246 KILOMETERS WHILE INCREASING BRIDGE

RECONSTRUCTION FROM 2,000 LINEAR METERS TO 4,494 LINEAR

METERS.    USAID/HONDURAS AND THE GOVERNMENT OF HONDURAS ALSO

DEVELOPED AN ACCELERATED IMPLEMENTATION PLAN THAT INVOLVES:



                               25
•   AWARDING ADDITIONAL CONTRACTS TO CONSTRUCTION FIRMS WITH

    AVAILABLE CAPACITY,



•   USING INDEFINITE QUANTITY CONTRACTS TO SHORTEN THE TIME

    NEEDED TO AWARD CONTRACTS,



•   PERMITTING THE RECAP EXECUTING UNIT FLEXIBILITY TO SHIFT

    ACTIVITIES BETWEEN GEOGRAPHIC AREAS AND CONTRACTORS BASED

    ON WEATHER CONDITIONS AND CONTRACTOR PERFORMANCE,



•   ADJUSTING SELECTION CRITERIA TO ENSURE THAT ONLY ROADS AND

    BRIDGES THAT CAN BE COMPLETED BY DECEMBER 31, 2001 ARE

    SELECTED FOR RECONSTRUCTION, AND



•   ALLOWING THE RECAP EXECUTING UNIT TO HIRE ADDITIONAL

    STAFF.



ALSO IN HONDURAS, OUR AUDITORS EXAMINED WATER AND

SANITATION RECONSTRUCTION ACTIVITIES WITH OBLIGATIONS OF

$95 MILLION IN OBLIGATED FUNDS.       THE AUDIT FOCUSED ON

DETERMINING WHETHER USAID/HONDURAS’ WATER AND SANITATION

RECONSTRUCTION ACTIVITIES WERE ON SCHEDULE TO ACHIEVE THE




                                 26
PLANNED OUTPUTS AND WHETHER GOVERNMENT OF HONDURAS AGENCIES

FOLLOWED USAID COMPETITION REQUIREMENTS IN AWARDING HOST

GOVERNMENT CONTRACTS.



THE AUDITORS CONCLUDED THAT USAID/HONDURAS’ WATER AND

SANITATION RECONSTRUCTION ACTIVITIES WERE NOT ON SCHEDULE

TO ACHIEVE THE PLANNED OUTPUTS.    ONE OF THE GOVERNMENT OF

HONDURAS AGENCIES WORKING WITH USAID – THE NATIONAL

AUTONOMOUS WATER AND SANITATION SERVICE – WAS RESPONSIBLE

FOR CONSTRUCTING LATRINES, RURAL WATER SYSTEMS, AND URBAN

WATER SYSTEMS.   WHILE CONSTRUCTION OF THE RURAL WATER

SYSTEMS AND LATRINES WAS ON SCHEDULE, CONSTRUCTION OF THE

URBAN WATER SYSTEMS WAS DELAYED.    CONSTRUCTION OF THE URBAN

WATER SYSTEMS, WHICH WERE RELATIVELY COMPLEX, EXPENSIVE

SYSTEMS, WAS PLANNED TO BE 37 PERCENT COMPLETE BY SEPTEMBER

2000 BUT WAS ONLY 8 PERCENT COMPLETE, MAINLY DUE TO DELAYS

IN RECEIVING USAID-PURCHASED CONSTRUCTION MATERIALS.     THESE

MATERIALS WERE ARRIVING AT CONSTRUCTION SITES WHEN THE

AUDITORS COMPLETED THEIR WORK IN DECEMBER 2000.



THE OTHER GOVERNMENT OF HONDURAS AGENCY WORKING WITH USAID

– THE HONDURAN SOCIAL INVESTMENT FUND (FHIS) – WAS

RESPONSIBLE FOR CONSTRUCTING WATER AND SANITATION SYSTEMS

AT RELOCATION SITES FOR DISPLACED PERSONS AS WELL AS IN



                              27
URBAN AREAS.   AT USAID’S DIRECTION, FHIS PACKAGED THESE

SYSTEMS IN SEVEN PROCUREMENT “BUNDLES” TO MAKE THEM MORE

ATTRACTIVE TO POTENTIAL U.S. BIDDERS.   AT THE TIME OF THE

OIG’S AUDIT, FHIS HAD AWARDED ONE OF THE SEVEN PROCUREMENT

BUNDLES.   CONSTRUCTION OF THE SYSTEMS INCLUDED IN THIS

PROCUREMENT BUNDLE WAS EXPECTED TO BE BETWEEN 22 PERCENT

AND 30 PERCENT COMPLETE BY SEPTEMBER 2000 (DIFFERENT

TARGETS WERE ESTABLISHED FOR EACH INDIVIDUAL SYSTEM).

ACTUAL CONSTRUCTION PROGRESS AS OF SEPTEMBER 2000 RANGED

FROM 8 PERCENT TO 13 PERCENT.




THE OIG RECOMMENDED THAT USAID/HONDURAS OBTAIN REVISED WORK

PLANS SHOWING WHAT ADJUSTMENTS WOULD BE MADE TO

CONSTRUCTION SCHEDULES IN ORDER TO MAKE UP FOR LOST TIME.



IN GUATEMALA, THE USAID MISSION HAS COMMITTED $3 MILLION TO

RECONSTRUCT OR REPAIR 14 BRIDGES AND REHABILITATE 230

KILOMETERS OF ROADS.   BOTH OF USAID’S LOCAL GRANTEES IN THIS

ACTIVITY ACHIEVED SIGNIFICANT RESULTS DURING THE FIRST EIGHT

MONTHS OF WORK.   HOWEVER, ONE OF THE LOCAL GRANTEES HAS

EXPERIENCED HIGHER THAN EXPECTED COSTS: FOR THE ROAD

REHABILITATION CONTRACTS SIGNED AT THE TIME OF OUR AUDIT, THE

COST PER KILOMETER WAS ABOUT TWICE WHAT WAS PLANNED.




                                28
MOREOVER, THE PARTNER DOES NOT HAVE A DETAILED PLAN FOR

COMPLETING THE REMAINING ROADS WITHIN THE AVAILABLE BUDGET.

USAID/GUATEMALA MONITORED THE ROAD AND BRIDGE REPAIR

ACTIVITIES BY PERFORMING SITE VISITS TO CONSTRUCTION AREAS,

MEETING WITH ITS GRANTEES TO DISCUSS PROJECT IMPLEMENTATION,

AND APPROVING PROJECT WORK PLANS.    HOWEVER, WE CONCLUDED THAT

USAID/GUATEMALA COULD STRENGTHEN ITS MONITORING OF THE

ACTIVITY BY PERFORMING DETAILED COST ANALYSES OF PROPOSED

RECONSTRUCTION COSTS TO SEE IF THEY ARE REALISTIC AND MAKING

SURE THAT IT IS APPRISED BY ITS GRANTEES WHEN THEY MAKE

SIGNIFICANT CHANGES TO APPROVED WORK PLANS.   THE AUDIT REPORT

RECOMMENDED THAT USAID/GUATEMALA OBTAIN A FIRM PLAN OF ACTION

FROM ITS PARTNER FOR COMPLETING THE REMAINING ROAD WORK AND

DEVELOP AN IMPROVED MONITORING PLAN.



IN THE DOMINICAN REPUBLIC, THE OIG AUDITED USAID/DOMINICAN

REPUBLIC’S HOUSING RECONSTRUCTION ACTIVITIES TO SEE WHETHER

THE ACTIVITIES WERE ON SCHEDULE AND WHETHER THE MISSION HAD

IMPLEMENTED AN ADEQUATE MONITORING SYSTEM FOR ITS HOUSING

RECONSTRUCTION ACTIVITIES.    FOR THE NEW HOUSING ACTIVITY,

USAID/DOMINICAN REPUBLIC WAS ON TRACK TO COMPLETE ALL 2,250

PLANNED NEW HOUSES ON TIME.    FOR THE HOUSING REPAIR ACTIVITY,

THE MISSION DECIDED TO REPAIR ONLY 1,541 HOUSES, COMPARED TO

2,750 HOUSES IN THE APPROVED WORK PLAN, IN ORDER TO FOCUS



                               29
RESOURCES ON INCLUDING FULL WATER AND SANITATION FACILITIES

IN THE NEWLY CONSTRUCTED HOMES.      THE OIG RECOMMENDED THAT THE

MISSION OBTAIN A REVISED WORK PLAN FROM ITS GRANTEE AND

REVISE THE COOPERATIVE AGREEMENT TO REFLECT THE REVISED

PLANS.   THE MISSION AGREED WITH THIS RECOMMENDATION AND A

MANAGEMENT DECISION HAS BEEN REACHED ON THE RECOMMENDATION.

THE MISSION HAD IMPLEMENTED AN ADEQUATE MONITORING SYSTEM.

MISSION STAFF WORKED CLOSELY WITH THE GRANTEE TO DEVELOP

HOUSING PROJECTS THAT WERE CONSISTENT WITH THE MISSION’S

HOUSING RECONSTRUCTION STRATEGY.      MISSION STAFF ALSO MADE

FREQUENT SITE VISITS TO ENSURE PROPER IMPLEMENTATION OF THE

PROJECT AND MONITOR PROGRESS.     ALSO, IN COLLABORATION WITH

THE OIG, THE MISSION HAD CONTRACTED FOR A CONCURRENT

FINANCIAL AUDIT OF THE PROJECT.



FINALLY, IN NICARAGUA, THE OIG AUDITED THE $9.5 MILLION

WATER AND SANITATION ACTIVITY TO DETERMINE WHETHER THE

ACTIVITY IS ON SCHEDULE TO ACHIEVE THE PLANNED OUTPUTS AND

WHETHER USAID/NICARAGUA IMPLEMENTED AN ADEQUATE MONITORING

SYSTEM FOR THE ACTIVITY.   THE AUDITORS CONCLUDED THAT THE

ACTIVITY IS ON SCHEDULE EXCEPT FOR SEEPAGE PITS (SMALL IN-

GROUND DRAINS FOR DISPOSING OF WASTEWATER FROM BATHING,

DISHWASHING, AND SIMILAR ACTIVITIES) VALUED AT ABOUT

$116,000.   THE AUDITORS ALSO FOUND THAT USAID/NICARAGUA



                                30
IMPLEMENTED AN ADEQUATE MONITORING SYSTEM THAT INCLUDED

FREQUENT FIELD VISITS THAT WERE APPROPRIATELY DOCUMENTED

AND A PERFORMANCE MONITORING PLAN THAT IDENTIFIED

APPROPRIATE SOURCES OF INFORMATION FOR MONITORING THE

PROGRESS AND RESULTS OF THE ACTIVITY.   HOWEVER, THE

AUDITORS FOUND SEVERAL CASES WHERE SIGNS PUBLICIZING

USAID’S SUPPORT FOR RECONSTRUCTION ACTIVITIES WERE NOT

ERECTED AND WHERE THE BENEFICIARIES WERE NOT AWARE THAT THE

U.S. GOVERNMENT (ACTING THROUGH USAID) WAS THE SOURCE OF

FUNDING FOR THE ACTIVITY.   ACCORDINGLY, THE AUDITORS PLAN

TO RECOMMEND THAT USAID/NICARAGUA TAKE ACTION TO (1)

ACCELERATE CONSTRUCTION OF THE SEEPAGE PITS OR REPROGRAM

THE FUNDS TO ANOTHER ACTIVITY AND (2) VERIFY THAT GRANTEES

HAVE ERECTED SIGNS ACKNOWLEDGING USAID SUPPORT FOR

WASTEWATER AND SANITATION ACTIVITIES.



CONCLUSIONS AND LESSONS LEARNED



WE WOULD LIKE TO DRAW A FEW CONCLUSIONS AND LESSONS

LEARNED, BUT OF COURSE, KEEPING IN MIND THAT THE HURRICANE

MITCH RECONSTRUCTION PROGRAM IS STILL BEING IMPLEMENTED,

AND THAT OUR OVERSIGHT OF THE PROGRAM IS STILL UNDERWAY,

THESE CONCLUSIONS AND LESSONS LEARNED HAVE TO BE CONSIDERED

TENTATIVE IN NATURE.



                              31
BASED ON THE OIG’S AUDIT WORK TO DATE, WE THINK IT IS FAIR

TO CONCLUDE THAT THERE HAVE BEEN SOME SIGNIFICANT DELAYS IN

IMPLEMENTING THE PROGRAM.   AT THE SAME TIME, WE THINK IT IS

IMPORTANT TO RECOGNIZE THAT A TREMENDOUS AMOUNT OF WORK HAS

BEEN ACCOMPLISHED AND WE ARE PLEASED THAT WE HAVE NOT SEEN

MAJOR PROBLEMS WITH CORRUPTION OR LARGE-SCALE DIVERSION OF

USAID FUNDS.



USAID HAS DEVELOPED SOME LESSONS LEARNED, WITH

PARTICIPATION FROM THE OIG. SOME OF THESE LESSONS LEARNED

ARE:



•   IN FUTURE DISASTER SITUATIONS, STAFFING DECISIONS AND

    TRANSFERS NEED TO BE MADE ON AN EMERGENCY BASIS.    THIS

    REQUIRES COORDINATION BETWEEN ALL OF THE USAID OFFICES

    THAT HELP MAKE STAFFING DECISIONS AND ALSO REQUIRES

    SUPPORT FROM TOP MANAGEMENT.   IN SOME CASES, TEAMS OF

    TECHNICAL EXPERTS, PROJECT DEVELOPMENT OFFICERS,

    CONTRACTING OFFICERS, ETC., CAN HELP GET PROGRAMS

    UNDERWAY AND ASSIST IN INITIAL IMPLEMENTATION.



•   THERE IS ALSO A NEED TO ASSIGN SUFFICIENT STAFF TO WORK

    WITH OTHER DONORS AND NON-PROFIT AND FOR-PROFIT ENTITIES



                              32
    IN THE UNITED STATES TO HELP MOBILIZE AVAILABLE RESOURCES

    WITHOUT OVERWHELMING LOCAL ABSORPTIVE CAPACITY.



•   USAID RECOGNIZES THE VALUABLE CONTRIBUTIONS MADE BY OTHER

    U.S. GOVERNMENT AGENCIES TO THE RECONSTRUCTION EFFORT.

    AT THE SAME TIME, THERE IS A NEED TO EVALUATE THEIR

    ABILITY TO DESIGN AND IMPLEMENT PROGRAMS OVERSEAS.    IN

    SOME CASES, IT MIGHT BE DESIRABLE TO FIND WAYS THAT OTHER

    U.S. GOVERNMENT AGENCIES CAN PARTICIPATE IN

    RECONSTRUCTION EFFORTS WITHOUT DESIGNING THEIR OWN

    DISCRETE PROGRAMS.



•   CLOSE COORDINATION BETWEEN USAID AND THE CONGRESS, BOTH

    BEFORE AND AFTER FUNDING IS APPROVED, CAN SPEED PROGRAM

    IMPLEMENTATION.



•   SPECIAL ACCOUNTABILITY AND OVERSIGHT MECHANISMS, SUCH AS

    CONCURRENT AUDITS, CAN HELP ENSURE THE SUCCESS AND

    CREDIBILITY OF USAID RECONSTRUCTION PROGRAMS.



WE WOULD LIKE TO EXPAND SOMEWHAT ON THE LESSONS LEARNED

FROM OVERSIGHT EFFORTS SINCE THIS IS AN AREA WHERE THE OIG

PLAYED A KEY ROLE.    PERHAPS THE MOST IMPORTANT LESSON FROM

OUR OVERSIGHT PROGRAM IS THAT PARTICIPATION AND TEAMWORK



                               33
ARE VERY IMPORTANT.    IN THIS REGION, WE HAVE A RELATIVELY

SMALL OFFICE, WHICH, WITH YOUR COMMITTEE’S HELP, WE WERE

ABLE TO EXPAND SIGNIFICANTLY FOR THE DURATION OF THE

HURRICANE MITCH PROGRAM.    BUT EVEN WITH THIS SIGNIFICANT

EXPANSION – FROM 7 TO 15 AUDITORS DURING A TWO-YEAR PERIOD

– IT WOULD HAVE BEEN FOOLISH FOR US TO SUPPOSE THAT WE

COULD MAINTAIN CONTROL OVER A PROGRAM OF THIS SIZE BY

OURSELVES.   COORDINATION WITH THE GENERAL ACCOUNTING OFFICE

HAS BEEN VERY IMPORTANT AND WE THINK THAT IT HAS HELPED US

FOCUS OUR OVERSIGHT PROGRAM AND AVOID DUPLICATION OF

EFFORT.



USAID MISSION STAFF, AND THE STAFF OF USAID’S CONTRACTORS

AND GRANTEES HAVE PLAYED AN ABSOLUTELY CRITICAL ROLE IN OUR

OVERSIGHT PROGRAM.    AS WE INDICATED EARLIER, THE FRAUD

AWARENESS TRAINING WE DID HAS RECEIVED A VERY ENTHUSIASTIC

RESPONSE AND WE THINK IT HAD A TREMENDOUS DETERRENT EFFECT.

I THINK THAT PARTICIPATION AND TEAMWORK HAVE ALSO BEEN

IMPORTANT IN OUR WORK WITH AUDIT FIRMS, SAIS, AND DCAA TO

CARRY OUT FINANCIAL AUDITS OF THE HURRICANE MITCH PROGRAM.

PRIOR TO THE HURRICANE MITCH PROGRAM, DCAA HAD NOT PLAYED A

LARGE ROLE IN AUDITING USAID PROGRAMS IN OUR REGION,

ALTHOUGH DCAA HAS FOR MANY YEARS PERFORMED AUDITS OF USAID

CONTRACTORS BASED IN THE UNITED STATES.    UNDER THE



                               34
HURRICANE MITCH PROGRAM, WE HAVE ASKED DCAA TO PERFORM 16

AUDITS FOR US ON A COST-REIMBURSABLE BASIS.    THEY HAVE DONE

VERY HIGH QUALITY WORK FOR US AND HAVE PROVIDED EXCELLENT

CUSTOMER SERVICE, SO IT IS LIKELY THAT WE WILL WANT THEM TO

CONTINUE TO WORK WITH US IN THIS REGION AFTER THE HURRICANE

MITCH PROGRAM ENDS.



THE PARTICIPATION OF OVERSEAS AUDIT FIRMS AND SAIS IN OUR

FINANCIAL AUDIT PROGRAM HAS ALSO BEEN ABSOLUTELY CRITICAL.

HERE, IT WOULD BE FAIR TO SAY THAT WE HAVE SEEN A WIDER

RANGE OF CAPABILITIES AND EXPERIENCE.    WHILE SOME OF THE

AUDIT FIRMS AND SAIS WE WORK WITH DEMONSTRATE A HIGH DEGREE

OF SKILL AND PROFESSIONALISM, OTHERS NEED MUCH MORE

ASSISTANCE FROM OUR OFFICE TO PERFORM SATISFACTORILY.    AND

IT IS PROBABLY TRUE THAT IN SOME CASES IT MIGHT HAVE BEEN

MORE EFFICIENT TO WORK WITH A MORE SELECT GROUP OF

AUDITORS.   BUT OF COURSE EFFICIENCY IS NOT THE ONLY

IMPORTANT MEASURE OF SUCCESS.    OUR WORK WITH AUDIT FIRMS

AND SAIS IS PART OF A LONG-TERM COMMITMENT BY THE OIG TO

HELP STRENGTHEN THE AUDIT PROFESSION IN THE REGION.    BY

PARTICIPATING IN AUDITS OF USAID FUNDS, AUDITORS GAIN

EXPERIENCE IN PERFORMING AUDITS IN ACCORDANCE WITH

INTERNATIONALLY RECOGNIZED AUDITING STANDARDS AND GAIN

ACCESS TO TRAINING AND TECHNICAL ASSISTANCE FROM OUR STAFF.



                                35
WE THINK WE ARE GOING TO HAVE SOME REAL SUCCESS STORIES TO

TELL IN TERMS OF AUDIT ORGANIZATIONS THAT HAVE BEEN

SIGNIFICANTLY STRENGTHENED THROUGH THIS AUDIT PROGRAM.

AND, PERHAPS ALMOST AS IMPORTANTLY, WHERE WE HAVE WORKED

WITH LOCAL AUDIT FIRMS AND SAIS WE HAVE BEEN ABLE TO AVOID

THE APPEARANCE THAT THIS EXTRAORDINARY ANTI-CORRUPTION

EFFORT IS SOMETHING IMPOSED BY THE U.S. GOVERNMENT.   WE

THINK THAT THE PARTICIPATION OF LOCAL AUDIT FIRMS AND SAIS

IN OUR AUDIT PROGRAM UNDERLINES THE REALITY THAT THIS

OVERSIGHT PROGRAM IS IN FACT A JOINT EFFORT BETWEEN THE

U.S. GOVERNMENT AND A VERY WIDE VARIETY OF ORGANIZATIONS,

BOTH IN THE PUBLIC SECTOR AND IN THE PRIVATE SECTOR IN THE

REGION.



WE’VE ALSO LEARNED A LOT ABOUT CONCURRENT AUDITS AND HOW

THEY CAN BE USEFUL TO US IN IDENTIFYING PROBLEMS EARLY ON,

WHILE THEY ARE STILL SMALL PROBLEMS, AND BEFORE THEY CAN

GROW.   WE ALSO BELIEVE THAT, BY PROVIDING US WITH A HIGHLY

VISIBLE PRESENCE WITHIN MANY OF THE ORGANIZATIONS

IMPLEMENTING USAID PROGRAMS, THESE CONCURRENT AUDITS HAVE

HAD AN IMPORTANT DETERRENT EFFECT ON INDIVIDUALS WHO MIGHT

HAVE BEEN CONTEMPLATING ENGAGING IN SOME TYPE OF FRAUDULENT

ACTIVITY.




                              36
THE OIG HAS DONE CONCURRENT AUDITS MANY DIFFERENT WAYS AT

DIFFERENT TIMES, IN DIFFERENT REGIONS OF THE WORLD.    THIS

REFLECTS THE FACT THAT THE NEEDS AND PRIORITIES AND

RESOURCES AVAILABLE ARE ALWAYS A LITTLE DIFFERENT.    WE

THINK THAT THE WAY THAT WE’VE DONE CONCURRENT AUDITS FOR

THE HURRICANE MITCH PROGRAM HAS PROVEN TO BE A VERY COST

EFFECTIVE WAY TO PROVIDE CONTROL OVER A LARGE EMERGENCY

DISASTER RECOVERY PROGRAM LIKE THIS ONE.   THAT OPINION IS

FAIRLY WIDELY HELD.   IN FACT, WE ARE NOW WORKING CLOSELY

WITH THE LAC BUREAU AND USAID/EL SALVADOR ON PLANS TO

PERFORM SIMILAR CONCURRENT AUDITS, WHERE WARRANTED BY THE

RISKS, UNDER THE EARTHQUAKE RECONSTRUCTION PROGRAM IN EL

SALVADOR.



MR. CHAIRMAN, THAT CONCLUDES OUR STATEMENT.   WE WILL BE

PLEASED TO ANSWER ANY QUESTIONS THAT YOU OR OTHER COMMITTEE

MEMBERS HAVE.




                              37
